<html>
<title> - INVESTIGATING CONTRACT MISCONDUCT AT THE NATIONAL WEATHER SERVICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                   INVESTIGATING CONTRACT MISCONDUCT 
                    AT THE NATIONAL WEATHER SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 15, 2015

                               __________

                           Serial No. 114-32

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-572PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       








       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana













                            C O N T E N T S

                             July 15, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written Statement............................................     8

                               Witnesses:

Mr. Mark Greenblatt, Deputy Assistant General for Compliance & 
  Ethics, Office of Inspector General, Department of Commerce
    Oral Statement...............................................    12
    Written Statement............................................    15

Mr. Robert Byrd, Former Chief Financial Officer, National Weather 
  Service

MMr. Peter Jiron, Former Deputy Chief Financial Officer, National 
  Weather Service

Discussion.......................................................    20

             Appendix I: Answers to Post-Hearing Questions

Mr. Mark Greenblatt, Deputy Assistant General for Compliance & 
  Ethics, Office of Inspector General, Department of Commerce....    48

            Appendix II: Additional Material for the Record

Report submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    82

 
                   INVESTIGATING CONTRACT MISCONDUCT
                    AT THE NATIONAL WEATHER SERVICE

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``Investigating Contract 
Misconduct at the National Weather Service.'' I'll recognize 
myself for an opening statement and then recognize the Ranking 
Member.
    Today, we will hear about the Department of Commerce 
Inspector General's recent report on alleged contracting 
misconduct and improper influence at the National Weather 
Service. The Committee on Science, Space, and Technology has 
primary jurisdiction of the National Oceanic and Atmospheric 
Administration and the National Weather Service.
    Accurate and timely forecasts help keep Americans safe from 
extreme weather events. But this vital work is undermined and 
taxpayer money is wasted when senior officials at the National 
Weather Service, NOAA, and the Department of Commerce are 
apparently complicit in granting improper contracts.
    Today's hearing is an opportunity to hear from Mr. Donald 
Jiron, the former Deputy Chief Financial Officer at the 
National Weather Service; and Mr. Robert Byrd, the former Chief 
Financial Officer at the National Weather Service. These two 
individuals have the opportunity today to truthfully tell us 
why taxpayers picked up the tab for an allegedly improper 
contract worth nearly half a million dollars.
    There is something fundamentally wrong with a system that 
allows a government employee to draft their own post-retirement 
contract, which increases their salary and pays for their 
housing, while being funded by American taxpayers. Furthermore, 
in this case the National Weather Service hired a replacement 
for Mr. Jiron who ended up duplicating the work Mr. Jiron was 
doing as a contractor. So after paying Mr. Jiron more money 
each month as a contractor and also paying a new Deputy CFO, 
American taxpayers essentially paid three times as much for the 
same work formerly done by one person.
    Somehow, the National Weather Service was not aware of this 
issue until Mr. Jiron allegedly bribed a government employee to 
get a family member a job, which led the Office of Inspector 
General to open an investigation. Although there is no legal 
issue in the vast majority of cases that involve federal 
employees who return to work as contractors, I am concerned 
that this type of inappropriate revolving door problem might be 
common at the National Weather Service.
    Mr. Jiron and Mr. Byrd were invited here today to explain 
what happened. Unfortunately, both former senior officials 
chose noncooperation over being forthright. Both refused to 
speak with committee staff voluntarily and only appeared here 
today after the Committee had no alternative but to issue a 
subpoena. I still hope that Mr. Jiron and Mr. Byrd will take 
the opportunity today to address the charges made in the IG's 
report.
    One of the most important functions of Congress is to 
conduct oversight of the executive branch. This provides the 
fundamental checks and balances that our founders intended. 
When Americans' trust has been violated, Congress has an 
obligation to understand what went wrong so we can ensure that 
it does not happen again.
    I was disappointed to learn that, despite the OIG's 
findings, the Obama Administration's Justice Department refused 
to investigate this case. In fact, the DOJ rejected the IG's 
recommendations to investigate. So I look forward to hearing 
from all three witnesses this morning to shed more light on 
these allegations.
    [The prepared statement of Chairman Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Today we will hear about the Department of Commerce Inspector 
General's (IG) recent report on alleged contracting misconduct and 
improper influence at the National Weather Service.
    The Committee on Science, Space, and Technology has primary 
jurisdiction of the National Oceanic and Atmospheric Administration 
(NOAA) and the National Weather Service (NWS).
    Accurate and timely forecasts help keep Americans safe from extreme 
weather events. But this vital work is undermined and taxpayer money is 
wasted when senior officials at the NWS, NOAA, and the Department of 
Commerce are apparently complicit in granting improper contracts.
    Today's hearing is an opportunity to hear from Mr. Donald Jiron, 
the former Deputy Chief Financial Officer at the National Weather 
Service and Mr. Robert Byrd, the former Chief Financial Officer at the 
National Weather Service.
    These two individuals have the opportunity today to truthfully tell 
us why taxpayers picked up the tab for an allegedly improper contract 
worth nearly half a million dollars.
    There is something fundamentally wrong with a system that allows a 
government employee to draft their own post-retirement contract, which 
increases their salary and pays for their housing while being funded by 
the American taxpayers.
    As a further insult to taxpayers, the National Weather Service 
hired a replacement for Mr. Jiron who ended up duplicating the work Mr. 
Jiron was doing as a contractor.
    So after paying Mr. Jiron more money each month as a contractor and 
also paying a new Deputy CFO, American taxpayers essentially paid three 
times as much for the work formerly done by one person.
    Somehow, the National Weather Service was not aware of this issue 
until Mr. Jiron allegedly bribed a government employee to get a family 
member a job, which led the Office of Inspector General (OIG) to open 
an investigation.
    Although there is no legal issue in the vast majority of cases that 
involve federal employees who return to work as a contractors, I am 
concerned that this type of inappropriate revolving door problem might 
be common at NWS.
    Mr. Jiron and Mr. Byrd were invited here today to explain what 
happened. Unfortunately, both former senior officials chose non-
cooperation over being forthright.
    Both refused to speak with Committee staff voluntarily and only 
appeared here today after the Committee had no alternative but to issue 
a subpoena. I still hope that Mr. Jiron and Mr. Byrd will take the 
opportunity today to address the charges made in the IG's report.
    One of the most important functions of Congress is to conduct 
robust oversight of the Executive branch. This provides the fundamental 
checks and balances that our founders intended. It also ensures the 
American people's trust in their government.
    When that trust has been violated, Congress has an obligation to 
understand what went wrong so we can ensure that it does not happen 
again.
    I was disappointed to learn that despite the OIG's good work 
highlighting this case, the Obama Administration's Justice Department 
(DOJ) refused to investigate this case. In fact, the DOJ rejected the 
IG's recommendations to investigate.
    I look forward to hearing from all three witnesses this morning to 
shed light on these allegations and regain the Americans' trust.

    Chairman Smith. And that concludes my opening statement, 
and the gentlewoman from Texas, Ms. Johnson, is recognized for 
hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    Today, we are holding a hearing entitled ``Investigating 
Contract Misconduct at the National Weather Service.'' I'm 
afraid that much of this hearing will be unfortunately theater 
rather than real oversight work and I regret this.
    Before I touch on that again, I do want to speak to the 
Inspector General's report, which is the genesis for this 
hearing. Now, I certainly do not support misconduct by 
government officials. However, it looks like the problems 
uncovered in this report are less about the specific conduct of 
one individual than the failure of judgment and oversight up 
and down the management chain in the National Weather Service.
    It is widely known in the NWS that Mr. Jiron, the Deputy 
Chief Financial Officer, was going to come back as a contract--
contractor after retiring. No one intervened to stop him from 
writing his own statement of work. They even suggested that he 
do it and others in the office actually helped him by reading 
and commenting on this statement of work. It was also common 
knowledge in the office that NWS was paying for his housing 
costs while he was a contractor and no one ever raised a 
question about this or attempted to revise the contract.
    That no one knew to stop Jiron from doing those things is 
more concerning to me than his personal actions. This kind of 
systemic failure is disappointing and something we should hold 
the NWS to account for. However, we do not have any current NWS 
officials here today to discuss how they plan to proceed in the 
future or what steps they already have taken. Instead, we have 
two retired NWS employees who were compelled to attend this 
hearing by Congressional subpoena despite the fact that they 
have they too--they have both indicated that they plan on 
exercising their constitutional right to not speak here today.
    I'm not sure an issue with a single post-employment 
contract is worthy of this spectacle, Mr. Chairman. I want to 
be clear that I'm not defending these gentlemen's conduct to 
the degree that we understand it but I question the aggressive 
action of this Committee when the Chairman has been reluctant 
to act in other areas. The systemic failure of NWS is matched 
by a different systemic failure in the Commerce IG's office. 
That office received allegations regarding Mr. Jiron's action 
in January 2012. By August 2012 the IG was briefed on the 
findings and nearly 20 interviews had been completed. The 
report was essentially done at that point. Then it died. 
Nothing happened with this case for years. And then almost two 
years later the IG rushed to issue this report at about the 
same time the IG's office was being investigated by this 
Committee.
    While this report may be 100 percent accurate and Mr. 
Greenblatt may have done a public service in shepherding the 
report to completion, I have to look at the timing of the 
report's release and some--with some skepticism. Knowing that 
the report was revised at a moment that saw the leadership in 
the office looking for sensational products to convince this 
Committee to drop a bipartisan investigation of the former IG 
Todd Zinser and his office makes me question the product.
    I think it is worth reminding the Members of this Committee 
about that investigation of the IG's office. The investigation 
began as a bipartisan effort. It included three bipartisan 
letters from the Committee, including two document requests. It 
included a number of staff interviews of Commerce IG employees 
and it included the establishment of a network or 
whistleblowers providing information to the Committee.
    This investigation bore much fruit. It uncovered a pattern 
of whistleblowing intimidation and retaliation by the Inspector 
General Todd Zinser and his Deputy Morgan Kim. It uncovered 
evidence of gross mismanagement of the office, some of which 
likely violated federal law and regulations. It uncovered 
possible false statements to Congress during Mr. Zinser's 
confirmation process. Perhaps more importantly, it uncovered 
extensive evidence of Todd Zinser and Morgan Kim's personal 
efforts to obstruct the Committee's investigation.
    This evidence led me to ask the President to remove Mr. 
Zinser from office. I'm attaching a letter and my March Floor 
statement outlining the results of this investigation, as well 
as our past letters to my statement today.
    This evidence led the Chairman down a different path. The 
Chairman pushed the investigation over to the Council of 
Inspectors General for Integrity and Efficiency, the CIGIE. 
However, we have it on good authority the FBI sought 
information to support the Chairman's letter to the CIGIE on 
two separate occasions and the majority staff did not respond 
leaving the CIGIE investigation to die a quiet death.
    It is confusing to me that on the one hand the Chair 
quietly tolerates the most obvious and well-documented 
obstruction this Committee has----
    Chairman Smith. The gentlewoman's time is expired. However, 
she is recognized for an additional minute.
    Ms. Johnson of Texas. Thank you. I want to finish my 
statement.
    While on the other hand the Chair has issued more subpoenas 
in the past year than the previous six committee Chairs 
combined. And last week the majority accused the EPA of 
obstruction based on zero supporting evidence of those claims. 
I wish this Committee would focus a little less on political 
theater and a little more on real documented wrongdoing. I'm 
sending the acting Commerce Inspector General a letter 
instructing him to retain all records in anticipation of my 
sending a referral to the Department of Justice regarding 
criminal misconduct by the former Congress Inspector General 
and others in the coming days. I will send that referral to the 
Department of Justice and I would welcome any of my colleagues 
who wish to engage in the real oversight to join me in that 
letter. Thank you and I yield back.
    [The prepared statement of Ms. Johnson follows:]

            Statement submitted by Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Mr. Chairman. Today we are holding a hearing 
entitled, "Investigating Contract Misconduct at the National 
Weather Service." I'm afraid that much of this hearing will 
unfortunately be theater rather than real oversight work, and I 
regret this.
    Before I touch on that again, I do want to speak to the 
Inspector General's report which is the genesis for this 
hearing. Now, I certainly do not support misconduct by 
government officials. However, it looks like the problems 
uncovered in this report are less about the specific conduct of 
one individual than a failure of judgment and oversight up and 
down the management chain in the National Weather Service.
    It was widely known in NWS that Mr. Jiron, the Deputy Chief 
Financial Officer, was going to come back as a contractor after 
retiring. No one intervened to stop him from writing his own 
statement of work, they even suggested that he do it and others 
in the office actually helped him by reading and commenting on 
his statement of work. It was also common knowledge in the 
office that NWS was paying for his ``housing costs'' while he 
was a contractor and no one ever raised a question about this 
or attempted to revise his contract.
    That no one knew to stop Jiron from doing those things is 
more concerning to me than his personal actions. This kind of 
systemic failure is disappointing, and something we should hold 
NWS to account for. However, we do not have any current NWS 
officials here today to discuss how they plan to proceed in the 
future or what steps they have already taken.
    Instead we have two retired NWS employees who were 
compelled to attend this hearing by Congressional subpoena 
despite the fact that they have both indicated they plan on 
exercising their Constitutional right to not speak here today. 
I'm not sure an issue with a single post-employment contract is 
worthy of this spectacle, Mr. Chairman. I want to be clear that 
I am not defending these gentlemen's conduct, to the degree we 
understand it, but I question the aggressive action of this 
Committee when the Chairman has been so reluctant to act in 
other areas.
    The systemic failure at NWS is matched by a different 
systemic failure in the Commerce IG's office. That office 
received allegations regarding Mr. Jiron's actions in January 
of 2012. By Augst 2012, the IG was briefed on the findings and 
nearly 20 interviews had been completed. The report was 
essentially done at that point. Then it died. Nothing happened 
with this case for years. Then, almost two years later, the IG 
rushed to issue this report, at about the same time the IG's 
office was being investigated by this Committee.
    While this report may be 100% accurate, and Mr. Greenblatt 
may have done a public service in shepherding the report to 
completion, I have to look at the timing of the report's 
release with some skepticism. Knowing that the report was 
revived at a moment that saw the leadership in the office 
looking for sensational products to convince this Committee to 
drop our bipartisan investigation of the former IG Todd Zinser 
and his office makes me question the end product.
    I think it is worth reminding the Members of this Committee 
about that investigation of the IG's office. This investigation 
began as a bipartisan effort. It included three bipartisan 
letters from the Committee, including two document requests. It 
included a number of staff interviews of Commerce IG employees. 
And it included the establishment of a network of 
whistleblowers providing information to the Committee.
    This investigation bore much fruit. It uncovered a pattern 
of whistleblower intimidation and retaliation by the Inspector 
General, Todd Zinser, and his deputy, Morgan Kim. It uncovered 
evidence of gross mismanagement of the office, some of which 
likely violated Federal law and regulations. It uncovered 
possible false statements to Congress during Mr. Zinser's 
confirmation process. Perhaps most importantly, it uncovered 
extensive evidence of Todd Zinser and Morgan Kim's personal 
efforts to obstruct the Committee's investigation. This 
evidence led me to ask the President to remove Mr. Zinser from 
office. I am attaching that letter and my March floor statement 
outlining the results of the investigation, as well as our past 
letters, to my statement today.
    This evidence led the Chairman down a different path. The 
Chairman pushed the investigation over to the Council of 
Inspectors General for Integrity and Efficiency or CIGIE 
[pronounced SIG-EE]. However, we have it on good authority that 
the FBI sought information to support the Chairman's letter to 
CIGIE on two separate occasions and the Majority staff did not 
respond, leaving the CIGIE investigation to die a quiet death.
    It is confusing to me that on the one hand the Chair 
quietly tolerated the most obvious and well-documented 
obstruction this Committee has seen in at least a quarter 
century, while on the other hand the Chair has issued more 
subpoenas in the past year than the previous six Committee 
chairs combined. And last week the Majority accused the EPA of 
obstruction based on zero supporting evidence of those claims.I 
wish this Committee would focus a little less on political 
theater and a little more on real, documented wrong-doing.
    I am sending the Acting Commerce Inspector General a letter 
instructing him to retain all records in anticipation of my 
sending a referral to the Department of Justice regarding 
criminal misconduct by the former Commerce Inspector General 
and others. In coming days, I will send that referral to the 
Department of Justice and I would welcome any of my colleagues 
who wish to engage in real oversight to join me in that letter.
    I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson. I'll introduce our 
witnesses.
    Mr. Perlmutter. Mr. Chairman, point of order.
    Chairman Smith. For what purpose does the gentleman seeks 
to be recognized?
    Mr. Perlmutter. Point of order.
    Chairman Smith. And he will state his point of order.
    Mr. Perlmutter. Point of order is the witnesses have rights 
pursuant to the Constitution, Fifth Amendment, Rules of the 
House, and the Jefferson Manual, do they not?
    Chairman Smith. They do.
    Mr. Perlmutter. Point of order, Mr. Chairman.
    Chairman Smith. And your point of order is?
    Mr. Perlmutter. Pardon me?
    Chairman Smith. Would you state your point of order?
    Mr. Perlmutter. Point of order is these witnesses have--two 
witnesses, Mr. Byrd and Mr. Jiron, have advised this Committee 
that they intend to take the Fifth Amendment against self-
incrimination.
    Chairman Smith. That may well be the case.
    Mr. Perlmutter. Is that true? Have they advised this 
committee----
    Chairman Smith. We will see what they decide to do 
momentarily and I think you will not be surprised if they do 
seek the Fifth Amendment.
    Mr. Perlmutter. Okay. Point of order?
    Chairman Smith. The gentleman will continue to state his 
point of order.
    Mr. Perlmutter. Point of order is that they cannot be 
compelled to testify against themselves by this Committee or a 
court of law if they have taken the Fifth Amendment.
    Chairman Smith. That's my understanding as well.
    Mr. Perlmutter. Okay. Point of order.
    Chairman Smith. Please continue.
    Mr. Perlmutter. Point of order is to advise the attorneys 
on this panel that if someone has taken the Fifth, that as an 
attorney we have additional responsibilities under our Rules of 
Professional Conduct at least in Colorado and as in the DC. bar 
to not embarrass, humiliate, or degrade a witness who has 
exercised their constitutional rights pursuant to the Fifth 
Amendment. Is that not true?
    Chairman Smith. That is also the case.
    Mr. Perlmutter. Okay. I yield back.
    Chairman Smith. Okay. Thank you. And we will continue.
    Our first witness, Mr. Greenblatt, is the Deputy Assistant 
Inspector General for Compliance and Ethics for the Department 
of Commerce Office of Inspector General. Prior to his tenure at 
the Inspector General's Office, Mr. Greenblatt held the title 
of Investigative Counsel, Deputy Chief Counsel, and later 
Minority Staff Director and Chief Counsel on the U.S. Senate 
Permanent Subcommittee on Senate Investigations. Mr. Greenblatt 
earned his bachelor's degree from Duke University and his J.D. 
from Columbia University School of Law. We welcome him.
    Our next witness, Mr. Robert Byrd, formerly served as the 
Chief Financial Officer for the National Weather Service. Mr. 
Byrd holds an MBA with honors from Loyola College of Maryland 
and has completed postgraduate MBA programs at Syracuse 
University and Harvard Business School.
    Our final witness, Mr. Jiron, is the former Deputy Chief 
Financial Officer for the National Weather Service, and he has 
not provided us with any further information.
    It is not the Science Committee's practice to swear in 
witnesses at hearings. However, both Mr. Jiron and Mr. Byrd 
refused to sign the Committee's False Statements Act 
Certification Form so I believe administering the oath to them 
is necessary at this time.
    And would Mr. Jiron and Mr. Byrd please rise----
    Mr. Perlmutter. Mr. Chairman, one more point of order.
    Chairman Smith. --and raise your right hands.
    Mr. Perlmutter. Mr. Chairman?
    Chairman Smith. The gentleman will state his point of 
order.
    Mr. Perlmutter. Another point of order. Pursuant to the 
Constitution, these gentlemen are entitled to have counsel to 
assist them at this hearing, are they not?
    Chairman Smith. If they wish, they have that right and I 
believe they do.
    Mr. Perlmutter. One more point of order, sir?
    Chairman Smith. Yes, state your point of order.
    Mr. Perlmutter. Must they--having given notice to this 
Committee that they intend to take the Fifth Amendment, must 
they remain here for purposes of taking----
    Chairman Smith. No.
    Mr. Perlmutter. --this oath?
    Chairman Smith. If they take the Fifth Amendment, they will 
be excused.
    Mr. Perlmutter. Okay. I yield back.
    Chairman Smith. Okay. Thank you.
    Mr. Jiron and Mr. Byrd, will you please rise and raise your 
right hands? Thank you.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Let the record reflect that the witnesses 
answered in the affirmative, and please be seated.
    Mr. Greenblatt, we look forward to your testimony, and 
please proceed.

               TESTIMONY OF MR. MARK GREENBLATT,

                    DEPUTY ASSISTANT GENERAL

                    FOR COMPLIANCE & ETHICS,

                  OFFICE OF INSPECTOR GENERAL,

                     DEPARTMENT OF COMMERCE

    Mr. Greenblatt. Chairman Smith, Ranking Member Johnson, 
Members of the Committee, we appreciate the opportunity to 
testify today.
    Last month, the Department of Commerce Office of Inspector 
General issued a report detailing our investigation into 
allegations of impropriety involving a senior National Weather 
Service official, who became a consultant to the agency 
immediately after his retirement. Our investigation identified 
a number of problems related to the retention of this senior 
official.
    With regard to the senior official himself, the evidence 
established that he was personally and substantially involved 
in the procurement of his own postretirement consulting 
services. Specifically, the evidence established that while he 
was still a federal employee, this senior official 1) drafted 
and edited the statement of work for his consulting position; 
2) participated with National Weather Service officials in 
setting his future rate of pay; and 3) signed the task 
management plan that authorized the consulting work he would 
later perform. Notably, he signed this task management plan 
while he was still a federal employee as ``contractor POC,'' 
the contractor's point of contact. This involvement implicated 
several federal laws and regulations, including the Criminal 
Conflict of Interest Statute founded 18 USC 208.
    Additionally, evidence established that this senior 
official took inappropriate steps to arrange for the National 
Weather Service to pay for his housing expenses for his 
postretirement consulting position, which amounted to nearly 
$52,000. The evidence also established that after he became a 
contractor himself, this senior official contacted several 
National Weather Service officials in an attempt to secure 
another contracting position for an immediate family member.
    We concluded that the senior official's actions in 
attempting to influence the NWS staff were improper and in one 
case may have implicated 18 USC 201, the criminal statute 
prohibiting bribery of public officials.
    As a result of our investigation and our initial briefings 
with senior NOAA leadership, NOAA took immediate action to stop 
work on the senior official's task order in early 2012. In 
total, the senior official's postretirement work as a 
consultant lasted 21 months and cost the government more than 
$471,000.
    While the OIG's inquiry focused on this senior official 
because he was identified by name in multiple whistleblower 
complaints, we nonetheless concluded that several other 
government officials share responsibility for the problems we 
identified. In particular, evidence indicated that the subject 
acted at the direction and with the approval of his supervisor 
at all times. 2) The subject's consulting arrangement was 
facilitated and approved by other officials with responsibility 
for ensuring integrity in government contracting.
    Further, statements from several witnesses indicate that it 
is not uncommon for National Weather Service employees to 
retire and then come back as contractors to perform similar 
duties. For example, a high-ranking official at NWS wondered 
aloud during her OIG interview ``why we have all these people 
that retire and then we go and hire them to come back.''
    Similarly, a representative of NOAA's Acquisition and Grant 
Office, which is responsible for approving NWS contractor 
positions, indicated that federal employees returning as 
contractors once they retire ``happens all the time.'' In fact, 
the NWS supervisor in this case told us that he did not see any 
problems with the arrangement because he ``sort of got the 
sense that this is just the way business is done.''
    Comments such as these indicate that there may exist a 
revolving door practice at NWS that created an environment in 
which problems that we identified in our report could occur. 
With this in mind, the OIG is now taking steps to assess 
whether a revolving door practice truly exists at NWS. For 
example, on June 11 we initiated an audit of NWS's award and 
administration of procurement actions that support its 
workforce. The overall objective of this audit is to evaluate 
whether NWS has adequate controls in place to ensure compliance 
with applicable laws and regulations for personnel support 
acquired through service contracts. As part of this audit, we 
will assess how many former NWS employees--how many former 
employees NWS may have retained as contractors within the last 
several years. Through our investigative and audit efforts, we 
will examine how often such hirings occur, whether they comply 
with relevant contracting and ethics regulations, and whether 
there are any programs, offices, and areas that may warrant 
closer scrutiny.
    I want to thank the Committee for the opportunity to 
testify today and I look forward to your questions.
    [The prepared statement of Mr. Greenblatt follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Smith. Thank you, Mr. Greenblatt, for your 
testimony.
    Mr. Byrd, you have not provided the Committee with a 
witness statement. Do you wish to make a statement at this 
time?
    Mr. Byrd. Thank you, Mr. Chairman. My name is Robert Byrd 
and I've been compelled to appear before this Committee by 
subpoena. On advice of counsel, I respectfully exercise my 
Fifth Amendment right not to testify.
    Chairman Smith. Okay. I have some questions and then we'll 
look forward to your response.
    Mr. Perlmutter. Point of order, Mr. Chairman.
    Chairman Smith. The gentleman will state his point of 
order.
    Mr. Perlmutter. Point of order. Upon taking the Fifth, he 
may leave at this point in the hearing, may he not?
    Chairman Smith. The gentleman is incorrect. The witness 
needs to establish that he has taken the Fifth by his response 
to some questions that I intend to ask.
    Ms. Bonamici. Mr. Chairman? Mr. Chairman----
    Chairman Smith. Yes.
    Ms. Bonamici. --another point of order. The witness has 
already established that he's taken the Fifth. By your 
questioning him, you are putting him in a position where you're 
trying to set up that he will waive his right and I object to 
this. That's not what we're----
    Chairman Smith. Okay. To respond to the gentlewoman's point 
of order, the Fifth Amendment does not provide blanket immunity 
from all Committee questions.
    And if the gentlewoman and gentleman will listen to my 
questions, I think they'll understand since they're both 
lawyers why I need to proceed to ask these questions.
    Mr. Perlmutter. I'll do so with interest but don't be 
surprised if I do a point of order or two between your 
questions.
    Chairman Smith. The gentleman is always free to raise a 
point of order.
    Mr. Byrd, were you the Chief Financial Officer for the 
National Weather Service?
    Mr. Byrd. Upon advice of counsel, Mr. Chairman, I 
respectfully exercise my amendment right--my Fifth Amendment 
right----
    Chairman Smith. Okay.
    Mr. Byrd. --and decline to respond.
    Chairman Smith. Let the record reflect that Mr. Byrd has 
asserted his Fifth Amendment right against self-incrimination.
    And Mr. Byrd, please let me be very clear. Are you 
declining to answer the Committee's question solely on the 
ground that you believe the answer will incriminate you?
    Mr. Perlmutter. Point of order, Mr. Chairman.
    Chairman Smith. You may state your----
    Mr. Perlmutter. Under the Fifth Amendment, he does not have 
to answer that.
    Chairman Smith. That I am told is not a valid point of 
order and I'm going to direct the witness to answer the 
question.
    Ms. Bonamici. Mr. Chairman, point of order.
    Chairman Smith. The gentlewoman will raise a point of 
order.
    Ms. Bonamici. I request that if Mr. Byrd now would like to, 
he may consult with his attorney.
    Chairman Smith. He is always free to consult with his 
attorney and that's not a legitimate point of order.
    Mr. Byrd, would you answer my question and let me repeat 
it. Are you declining to answer the Committee's question solely 
on the ground that you believe the answer will incriminate you?
    Mr. Byrd. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right not to respond.
    Chairman Smith. Um-hum. And was Mr. Jiron your Deputy Chief 
Financial Officer at the National Weather Service?
    Mr. Byrd. On advice of counsel, I respectfully exercise my 
Fifth Amendment right and decline to respond.
    Chairman Smith. Okay. And did you approve Mr. Jiron's 
postretirement consulting contract?
    Mr. Perlmutter. Point of order, Mr. Chairman.
    Chairman Smith. Another point of order. The gentleman will 
state his point of order.
    Mr. Perlmutter. Point of order. This is a point of order 
that I raised initially that under the Rules of Professional 
Conduct for the District of Columbia, as well as Colorado--I 
assume Texas--that under Opinion 31 of the District of 
Columbia--in Colorado it's 8.4(h)--that to continue to pursue a 
line of questioning where a witness has taken the Fifth 
Amendment can be considered to be offensive, abusive, and 
harassing conduct not calculated to lead to admissible 
evidence.
    Chairman Smith. The gentleman has not taken the Fifth 
Amendment on every aspect of every question, and I have two 
more questions for him. At that point he will be allowed to be 
dismissed.
    Mr. Perlmutter. Okay.
    Chairman Smith. Mr. Byrd, two more questions--or three 
actually. Did you approve Mr. Jiron's postretirement consulting 
contract?
    Mr. Byrd. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer.
    Chairman Smith. And did you approve $50,000 worth the 
housing benefits received by Mr. Jiron, paid for by the 
National Weather Service?
    Mr. Byrd. Upon advice of counsel, Mr. Chairman, I 
respectfully exercise----
    Chairman Smith. Okay.
    Mr. Byrd. --my Fifth Amendment right and decline to answer.
    Chairman Smith. And my last question is this: Is it your 
intention to decline to answer all questions put to you today 
by the Committee on the basis of the Fifth Amendment right 
against self-incrimination?
    Mr. Byrd. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer.
    Chairman Smith. Okay. Mr. Byrd your testimony is essential 
to this hearing and to the Committee's Article I oversight and 
information-gathering functions with regard to contracting 
misconduct and exertion of improper influence at the National 
Weather Service. The Committee is entitled to probe the basis 
for your Fifth Amendment privilege assertion, especially as the 
Fifth Amendment does not provide blanket immunity from all 
questions by the Committee.
    The Committee specifically directs you to answer the 
question, notwithstanding your objection. Did you approve----
    Mr. Perlmutter. Point of order, Mr. Chairman----
    Chairman Smith. --$50,000----
    Mr. Perlmutter. Point of order.
    Chairman Smith. The gentleman is not recognized at this 
point.
    Did you approve $50,000 worth of housing benefits received 
by Mr. Jiron paid by the National Weather Service?
    The gentleman is now recognized for his point of order.
    Mr. Perlmutter. Point of order, Mr. Chairman. The gentleman 
has taken the Fifth Amendment with respect to every question 
that the Chair has submitted to him.
    Chairman Smith. And----
    Mr. Perlmutter. Point of order. That he is entitled at this 
point to his counsel, and I guess I am to say that this is now 
harassment given the fact that he has said he's going to take 
the Fifth Amendment and that he should be----
    Chairman Smith. The----
    Mr. Perlmutter. --allowed to leave pursuant to the rules 
and the Constitution----
    Chairman Smith. The response----
    Mr. Perlmutter. --of the United States.
    Chairman Smith. My response to the gentleman's point of 
order is that what we are doing is under the advisement by the 
House General Counsel. And once again, the Fifth Amendment does 
not provide blanket immunity to all questions and many of the 
Committee's questions fall outside of subjects over which you 
may legitimately claim a privilege.
    Mr. Perlmutter. Point of order.
    Chairman Smith. And the gentleman will state another point 
of order.
    Mr. Perlmutter. Rule 9, Clause 2 of the Rules of the House 
of Representative and Jefferson's Manual 341, 342, 343 allow a 
witness to not answer and does not have to respond to 
questions----
    Chairman Smith. Yes.
    Mr. Perlmutter. --pursuant to the Constitution----
    Chairman Smith. And that----
    Mr. Perlmutter. --and the ethical rules that attorneys are 
bound by have to respect those particular rights of a witness--
--
    Chairman Smith. Right.
    Mr. Perlmutter. --and to continue this line of questioning 
I would say to the Chairman is degrading and embarrassing and 
not calculated to lead to admissible evidence. And therefore, 
this witness should be allowed to leave at this point.
    Chairman Smith. To respond to the gentleman's point of 
view, the witness can answer my question any way he wants to. 
He can refuse to answer it; he can plead the Fifth Amendment. 
But in any case we are again proceeding in accordance with the 
recommendation and the advice of the House General Counsel.
    And if it makes the gentleman feel any better, this is 
probably the end of my questioning, but again, there is a 
reason for establishing this for the record.
    And once again, and finally, I want to ask the witness, did 
you approve $50,000 worth of housing benefits received by Mr. 
Jiron paid for by the National Weather Service?
    Mr. Byrd. Upon advice of counsel, Mr. Chairman, I 
respectfully exercise my Fifth Amendment right and decline to 
answer.
    Chairman Smith. Okay. Mr. Byrd, please be advised that you 
have a choice here between complying with the Committee's 
directive in answering the question or refusing to do so, which 
will place you at risk of a contempt citation, potentially a 
prosecution for contempt, and criminal liability. Do you 
understand this?
    Mr. Byrd. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer.
    Chairman Smith. The Fifth Amendment does not provide 
blanket immunity from all Committee questions. Indeed, many of 
the Committee's questions fall outside of subjects over which 
you may legitimately claim privilege.
    Additionally, by refusing to answer the Committee's 
questions, we cannot assess the legitimacy of your Fifth 
Amendment assertion. You are directed to answer the question 
and again are advised that the failure to do so may result in a 
contempt citation and criminal liability.
    Mr. Perlmutter. Point of order.
    Chairman Smith. The gentleman will state his point of 
order.
    Mr. Perlmutter. Point of order. The witness has rights, 
does he not?
    Chairman Smith. The gentleman will state a legitimate point 
of order.
    Mr. Perlmutter. The point of order is the witness has 
rights pursuant to the Fifth Amendment, to Section--Article 11, 
Clause 2, sections 341, 342, 343 of Jefferson's Manual, does he 
not?
    Chairman Smith. Of course the gentleman and the witness has 
rights.
    Mr. Perlmutter. Okay. So the gentleman has asserted his 
rights and the Chair's continued interrogation is probably 
beyond the pale of Opinion 31 and the Rules of Professional 
Conduct, as well as the rules of the House of Representatives. 
And at this point I would ask the Chair, can the witness leave?
    Chairman Smith. The gentleman has not stated a legitimate 
point of order but I'm still going to respond by saying I have 
one more question for the witness and frankly it is my 
responsibility to advise the witness of the consequences of his 
refusal to answer the questions. That is a legal responsibility 
on my part according to the General Counsel of the House.
    I have one final question for the witness. Knowing what 
I've just said, will you answer the Committee's question as 
directed or do you refuse to answer the Committee's question?
    Mr. Byrd. Upon advice of counsel, Mr. Chairman, I 
respectfully exercise my Fifth Amendment right and decline to 
answer.
    Chairman Smith. Okay. Mr. Byrd, you will be excused 
momentarily but I want to next address some very similar 
questions to Mr. Jiron and then I would expect you both to be 
excused.
    Mr. Jiron, you have not provided the Committee with a 
written statement. Do you wish to make a statement at this 
time?
    Mr. Jiron. Yes, Mr. Chairman. On the advice of counsel, I 
respectfully decline to answer on the basis of the Fifth 
Amendment, which, according to United States Supreme Court, 
protects everyone, even innocent people, from the need to 
answer questions if these answers might be used against them in 
a criminal prosecution.
    Chairman Smith. I understand, and you've just heard me ask 
some questions of Mr. Byrd. I'm going to ask you very similar 
questions. They are on different subjects and it's because the 
Fifth Amendment is not blanket immunity.
    Mr. Jiron, prior to your retirement from the National 
Weather Service, did you hold the position of Deputy Chief 
Financial Officer at the end of your 38-year duration as a 
public employee?
    Mr. Jiron. As I said before, on the advice of counsel I'm 
invoking my constitutional right not to answer.
    Chairman Smith. All right. Let the record reflect that Mr. 
Jiron has asserted his Fifth Amendment right against self-
incrimination.
    Mr. Jiron, please let me be very clear. Are you declining 
to answer the Committee's question solely on the ground that 
you believe the answer will incriminate you?
    Mr. Perlmutter. Point of order.
    Chairman Smith. The gentleman will state the point of 
order.
    Mr. Perlmutter. The point of order is----
    Chairman Smith. But he's likely to get the same answer I 
gave him a while ago, but he can still state a point of order.
    Mr. Perlmutter. Point of order. The witness, upon having 
already asserted his Fifth Amendment rights, does not have to 
proceed in this fashion to answer any other questions and 
that--
    Chairman Smith. That's a legitimate point of order and I 
will answer it as I did a while ago, and that is taking the 
Fifth Amendment does not provide blanket immunity from all 
Committee questions. And that's why I will continue to ask 
about certain subjects and he is willing and able and welcome 
to plead the Fifth Amendment if he so desires.
    Again, Mr. Jiron, are you declining to answer the 
Committee's question solely on the ground that you believe the 
answer will incriminate you?
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. My next question is did you return to the 
National Weather Service after your retirement as a consultant?
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. Did you draft your postretirement 
consulting contract while an employee of the National Weather 
Service?
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. Your attorney said that there are material 
inaccuracies in the Inspector General's report. Do you concur 
with that?
    Mr. Perlmutter. Point of order.
    Chairman Smith. The gentleman will state his point of 
order.
    Mr. Perlmutter. Point of order as to what the attorney 
said, the examination should be of the attorney, not of Mr. 
Jiron.
    Chairman Smith. I am simply saying what his attorney said. 
He can disagree or agree and answer the question any way he 
wants to.
    And once again, your attorney said that there are material 
inaccuracies in the Inspector General's report. Do you concur 
with that?
    Mr. Jiron. On the advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. Mr. Jiron, is it your intention to decline 
to answer all questions put to you today by the Committee on 
the basis of the Fifth Amendment right against self-
incrimination.
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. Mr. Jiron, your testimony is essential to 
this hearing and to the Committee's Article I oversight and 
information-gathering functions with regard to contracting 
misconduct and exertion of improper influence at the National 
Weather Service. The Committee is entitled to probe the basis 
for your Fifth Amendment privilege assertion, especially as the 
Fifth Amendment does not provide blanket immunity from all 
questions by the Committee.
    The Committee specifically directs you to answer the 
question, notwithstanding your objection. Did you draft your 
postretirement consulting contract while an employee of the 
National Weather Service?
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. Mr. Jiron, please be advised that you have 
a choice here between complying with the Committee's directive 
in answering the question or refusing to do so, which will 
place you at risk of a contempt citation, potentially a 
prosecution for contempt, and criminal liability. Do you 
understand that?
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. Mr. Jiron, the Fifth Amendment does not 
provide blanket immunity from all Committee questions. Indeed, 
many of the Committee's questions fall outside of subjects over 
which you may legitimately claim a privilege.
    Mr. Perlmutter. Point of----
    Chairman Smith. Additionally, by refusing to answer the 
Committee's questions, we cannot assess the legitimacy of your 
Fifth Amendment assertion. You're directed to answer the 
question and again are you advised--and again are advised that 
the failure to do so may result in a contempt citation and 
criminal liability. Knowing this, will you answer the 
Committee's question as directed or do you refuse to answer the 
Committee's question?
    Mr. Jiron. On advice of counsel, I'm invoking my 
constitutional right not to answer.
    Chairman Smith. I am disappointed that two of our witnesses 
refuse to answer questions or provide any information to help 
the Committee perform its oversight function.
    Mr. Jiron and Mr. Byrd, you are dismissed subject to 
recall. And we will now take a two minute recess in order for 
you all to leave the room.
    [Recess.]
    Chairman Smith. The Committee's hearing will resume and 
I'll recognize myself for five minutes to ask questions.
    Mr. Greenblatt, first of all, again I appreciate not only 
your testimony today but your investigation as well. You are 
doing a real public service and you are also helping us do our 
job as well.
    My first question is this: From what I read, it may well be 
common practice at NOAA and at the National Weather Service for 
employees to write their own contracts as a consultant, leave 
the employ of the federal government, and then almost 
immediately begin work as a consultant, oftentimes doing the 
same job for more money. Do you think this is common practice, 
and if so, how are we going to determine whether it is common 
practice?
    Mr. Greenblatt. I would say that the common practice that 
we found, what the witnesses told us, related to folks leaving 
the Weather Service and then coming back as contractors. That--
whether or not they wrote their own contracts or had 
involvement in the procurement of their own future services----
    Chairman Smith. Right.
    Mr. Greenblatt. --we did not get testimony on the extent of 
that. We did get a fair amount of testimony from folks saying 
that the retirement and then later contracting positions, that 
did happen.
    Chairman Smith. Right. And are you going to continue your 
investigation to find out whether it was commonplace for 
someone to write their own contract and then retire and then 
become a consultant?
    Mr. Greenblatt. Well, the Office of Inspector General has 
initiated an audit to look at the scope of the problem, and 
over the course of--and when I talk about the--what I'm talking 
about is the revolving door practice----
    Chairman Smith. Right.
    Mr. Greenblatt. --how often that happened over the last few 
years. Once we get our arms around the problem----
    Chairman Smith. Okay.
    Mr. Greenblatt. --then I think we'll begin to dissect and 
move forward----
    Chairman Smith. Just give me a rough idea as to how long 
you think it will take you to complete the continuing 
investigation?
    Mr. Greenblatt. I believe the anticipated delivery date on 
that particular audit is December 2015.
    Chairman Smith. Okay. So, what, six months from now roughly 
we'll be able to get another report on whether that practice is 
widespread or not?
    Mr. Greenblatt. That's my understanding, yes.
    Chairman Smith. Okay. Thank you. That's very helpful.
    It's my understanding, too, that penalties associated with 
the types of violations that have been alleged can be up to 
five years in prison and up to $50,000 for each violation. Is 
that correct?
    Mr. Greenblatt. That's under section 208, 18 USC 208.
    Chairman Smith. That's correct.
    Mr. Greenblatt. Yes, that has that and that's for willful 
engagement----
    Chairman Smith. Right.
    Mr. Greenblatt. --in those----
    Chairman Smith. The point I'm trying to make here is that 
these are very, very serious infractions. They may be criminal 
in nature and that's why you see penalties up to five years in 
prison. These are not light, minor types of ethical or criminal 
violations.
    Have Mr. Jiron or Mr. Byrd faced any kind of sanctions as a 
result of the allegations?
    Mr. Greenblatt. Well, once the Office of Inspector General 
uncovered some of the activities particularly related to Mr. 
Jiron's efforts to secure a position for his immediate family 
member, we briefed NOAA senior leadership and they took action 
to terminate the work order on that particular contract.
    Chairman Smith. Thank you for that answer. Also, it's my 
understanding that you recommended that the Department of 
Justice investigate themselves and they declined to do so. Why 
did they decline to investigate and not quite frankly follow up 
on your own recommendations?
    Mr. Greenblatt. Well, we referred the matter pursuant to 
the Attorney General guidelines to the----
    Chairman Smith. Um-hum.
    Mr. Greenblatt. --Department of Justice for consideration 
for their own efforts. They elected to decline to prosecute. As 
far as the specific reasons why, I think that would be better--
they would be better positioned----
    Chairman Smith. Okay.
    Mr. Greenblatt. --to provide the specific reasons as to why 
they declined.
    Chairman Smith. Okay. Their decline to prosecute was 
contrary to your recommendation that they investigate, is that 
correct?
    Mr. Greenblatt. Well, we're obligated to refer over cases 
in which we believe there's a reasonable basis to conclude that 
there was----
    Chairman Smith. Right.
    Mr. Greenblatt. --a criminal violation.
    Chairman Smith. Right. Who was the individual who was the 
decision-maker who, in your opinion, was the one who decided 
not to prosecute or not to continue the investigation?
    Mr. Greenblatt. Well, we referred the matter to the 
Department of Justice, the U.S. Attorney's office in Maryland 
because that is where----
    Chairman Smith. Right.
    Mr. Greenblatt. --the----
    Chairman Smith. Right.
    Mr. Greenblatt. --National Oceanic and Atmospheric 
Administration is located.
    Chairman Smith. Right. Did you talk to any individual in 
the Department of Justice and give verbal recommendation?
    Mr. Greenblatt. I did.
    Chairman Smith. And who did you talk to?
    Mr. Greenblatt. The individual there was an individual 
named James Crowley.
    Chairman Smith. Okay.
    Mr. Greenblatt. He's the Chief in the southern division of 
the U.S. Attorney's office in Maryland.
    Chairman Smith. So presumably he would have been the one or 
one of the individuals making the decision not to prosecute, is 
that right?
    Mr. Greenblatt. I don't know exactly again who made, you 
know, any sort of final decision but that was the individual 
that I spoke with.
    Chairman Smith. Is he the individual who told you that DOJ 
was not going to prosecute?
    Mr. Greenblatt. Yes.
    Chairman Smith. Okay. Thank you, Mr. Greenblatt. That 
concludes my questions.
    And the gentlewoman from Texas is recognized for hers.
    Ms. Johnson of Texas. Thank you, Mr. Chairman.
    I'd like to personally thank all of the whistleblowers from 
the Commerce IG's office who cooperated with our investigation. 
They risked their careers by bringing information of misconduct 
by the leadership of that office to this Committee. I believe 
stepping forward to inform us of these issues took real courage 
and strong ethical principles.
    While I have faith in the new leadership in Commerce's IG 
office to move in a much more positive direction, I also 
believe that this Committee has an obligation to those 
whistleblowers who risked their careers informing us of Mr. 
Zinser's misdeeds and that we continue to follow through.
    Mr. Greenblatt, your office has had a fairly terrible 
reputation regarding whistleblowers because of the conduct by 
the former IG and his closest aides, and I hope that the acting 
IG Mr. Smith takes stronger steps to restore the reputation of 
this office as a safe haven for whistleblowers.
    Tell me what you see that's happened to improve the 
situation and would you comment on the progress?
    Mr. Greenblatt. Well, I can speak to my experience. I have 
been with the IG for a little bit more than a year now and I 
believe my staff, we have a very healthy, productive 
environment. I think folks are happy; folks are given the 
opportunities to stretch their legs. We're doing sophisticated 
work, challenging work. I think people are fulfilled. That's 
something I actually take great pride in. I hope that's a 
reflection of the office as a whole. But in my experience and 
my perspective we have a good thing going and I hope that it 
continues in the future.
    Ms. Johnson of Texas. Thank you. I'm not dismissing 
wrongdoing by anyone, but in reviewing this case it seems more 
as if we have an institutional failure rather than individual 
wrongdoing. If any of the half-dozen officials had known 
better, they could have stopped Mr. Jiron for making the 
mistakes that he took in regards to this postemployment 
agreement. Do you agree that this is more of an institutional 
failure rather than individual misconduct?
    Mr. Greenblatt. What I would say is that it is certainly 
more than just an individual certainly. There were a number of 
people who were responsible for stopping any kind of problems 
of this sort and they just didn't catch it. Gatekeepers didn't 
act as gatekeepers, supervisors didn't supervise properly. And 
so that's the problem.
    Now institutionally, I don't know about the entire 
institution; I don't want to go to broad in the answer, but 
yes, it was certainly more than one individual. There's no 
doubt about that and I think our report is very clear about 
that.
    Ms. Johnson of Texas. Thank you. Last week, the Government 
Accountability Office, the GAO, released a report that I 
requested along with my colleagues on the Energy and Commerce 
Committee. It examined the effectiveness of the Commerce IG's 
office. The most disturbing finding of that report was the fact 
that the Commerce IG's office conducted no performance audits 
of the--of eight of the agency's 13 bureaus and offices from 
2011 to 2013 and that the OIG had not conducted a Federal 
Information Security Management Act audit for seven of the 
agency's 13 bureaus in the same period of time. I hope that the 
new leadership in your office will be much more effective, 
efficient, and aggressive in the oversight work. Would you like 
to respond to that?
    Mr. Greenblatt. Well, I appreciate your concern. I know 
that we have concurred with the GAO report and are working 
actively to address the recommendations. I should say I'm on 
the investigations' side of the House so I'm not well-
positioned to talk about the audit side of the House but I'm 
sure we can get back to you with further information if you 
would like on that specific angle.
    Ms. Johnson of Texas. Thank you very much. I would like to 
say that I have faith that the new leadership in the Commerce's 
IG office takes your oversight responsibilities seriously and 
will strive to correct the mismanagement issues that have 
crippled the effectiveness of this office in the past and I 
thank you. I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
want to compliment you for trying to do something that is 
important, and whenever you do things that are important, 
you're going to get some people mad at you and/or jumping in. 
And let me just say that I think that you have handled yourself 
very well in this hearing and I am disappointed that people 
felt compelled to jump on your case considering how important 
what we're examining is.
    We are talking about today the actual, well, I wouldn't 
call it embezzlement but at the very least a waste of hundreds 
of thousands of dollars--of taxpayer dollars, isn't that 
correct?
    Mr. Greenblatt. The amount that the senior official was 
paid pursuant to the contract and his housing was over 
$471,000.
    Mr. Rohrabacher. Right. $471,000. However, if he would have 
stayed in government service, he would have been paid a certain 
amount of money than less than that. I mean so the actual loss 
to the government isn't the 471,000 but it's hundreds of 
thousands of dollars anyway.
    Mr. Greenblatt. Well, and if you also add on to the fact 
that he was getting full retirement at that point as well on 
top of the wages--
    Mr. Rohrabacher. Correct.
    Mr. Greenblatt. --from the--under the contract, yes, it was 
much more than $471,000 in that regard.
    Mr. Rohrabacher. Okay. So if we allow things like this to 
go on--well, let me ask this. Is this a loophole in the law? Do 
you see this as a loophole that someone was able to do 
something legally that provided them with hundreds of thousands 
of dollars of personal benefit even though the government was 
not receiving any added service or benefit from the expenditure 
of that money? Is that a loophole or is this a violation of 
law?
    Mr. Greenblatt. Well, there are certainly colorable reasons 
to have someone come back after they retire. Sometimes they do 
have specialized knowledge, institutional knowledge that may 
warrant bringing them back. So I don't want to make any blanket 
statements that, you know, bringing someone back is 
inappropriate. That in and of itself is not a problem. It may 
set the stage for problems as in this case where the individual 
was involved in drafting his own statement of work for his 
future consulting services. That's where the problem lies on 
that particular topic.
    Mr. Rohrabacher. I actually would disagree with the last 
points that you made a. I think that we have a serious problem 
in the federal government, throughout the government--it's not 
just this one case but--where we have people who are making 
decisions that would benefit themselves based on senior people 
who will be retiring soon are making decisions, whether the 
Department of Defense or elsewhere, that are--have dramatically 
bad impact on the taxpayers getting their money's worth. And 
sometimes it's disastrous for generals, for example, who makes 
decisions on certain types of weapons systems that we will use 
and then going to work as soon as they retire for the company 
that's producing that weapon system.
    So we--I would hope that, number one, that what we're doing 
today, and as Chairman Smith is trying to do is sending the 
message that we--if we have an institutional mindset that sort 
of doesn't confront that problem, we're going to confront it 
now. If we are going to bring down the budget deficit, I would 
say the most laudatory way of bringing down the deficit is 
getting rid of things like this.
    And so if there is a mindset among government that they--
that this is an okay thing to do even though it's costing the 
taxpayers an enormous amount more money, well, let's go on the 
record now, all of us, to say that is not acceptable. And the 
best way we can do that is to take cases like this and 
unfortunately individuals will have to be confronted with this, 
and once they're confronted, the message will go out to the 
rest of government employees. This could save--not could--this 
will save the American taxpayer perhaps billions of dollars if 
we do this and eliminate this mindset that I see as pervasive 
throughout the federal government.
    So I thank you, Mr. Chairman, and thank you for your 
testimony today.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from New York, Mr. Tonko, is recognized for 
his questions.
    Mr. Tonko. Thank you, Mr. Chair.
    And Mr. Greenblatt, welcome. Mr. Greenblatt, our Committee 
first started investigating the conduct of the former Commerce 
IG Todd Zinser in September of 2012. This was soon after he 
testified before a Subcommittee on Investigation and Oversight 
hearing we held on the Antideficiency Act, or the ADA, 
violation at the National Weather Service. I at that time was 
the Ranking Member of the Oversight Subcommittee. At that 
hearing almost three years ago Mr. Zinser referenced the case 
you are testifying about. Mr. Zinser said ``while our 
investigation is ongoing, we have determined that NOAA provided 
the contractor housing valued at more than $52,000 and spent 
more than $336,000 in wages for this consultant's services over 
a period of 1-1/2 years. We promptly notified NOAA of our 
preliminary findings concerning the consultant's efforts to 
secure a job for the family member. NOAA took swift action to 
terminate the consultant's employment with the agency,'' said 
Mr. Zinser.
    So Mr. Zinser mentioned the case you finally released in 
June of 2015; all of the elements were there. Staff tell me 
that all the work was largely done. And I realize you just came 
to the Commerce IG's office last year but can you explain to us 
why a case the IG's office believed was potentially criminal in 
nature and was largely finished by August of 2012 sat 
unfinished for some 3 years?
    Mr. Greenblatt. I don't have a good answer for you. The 
delay is not good, and when we make mistakes, I'll own up to 
it. When I came on in May of 2014, we had an extensive backlog 
of cases. This was one of those cases. I was given a directive 
to clear out that backlog and we put considerable effort into 
doing just that. We've released a number of reports of 
significant value and--both internally and some that were 
issued publicly. And this was one of those reports.
    Part of the reason this was structured as it was in the 
priority list is that the behavior was not ongoing. It had 
stopped. The contract had stopped and so I think that was a 
factor in it. But at the end of the day it should have come out 
sooner and it was out effectively one year after I arrived at 
the office.
    Mr. Tonko. Well, the delay pattern, is this something that 
was a common pattern?
    Mr. Greenblatt. No, I don't think it was intentional in any 
way. I think----
    Mr. Tonko. Was it a common pattern?
    Mr. Greenblatt. I think we--as I said, we had a backlog of 
cases when I arrived. A number of them were older cases. We had 
major staffing issues and as part of our growth and as part of 
our revitalization in the Office of Investigations, we have 
knocked down that backlog. When I came on, there were cases 
from 2011 on the backlog and now we're only--we have cases that 
are only as old as 2014. So I think we've done a good job on 
that. I don't think we're all the way there yet but we have 
made fantastic progress in my view.
    Mr. Tonko. Okay. Well, frankly, we came away from our 
examination of the Antideficiency Act work with the impression 
that the office was badly managed. Hotline tips were lost or 
misassigned. We were aware of work that was started and then 
abruptly abandoned. GAO did a review of the office that found 
real problems in policies, in procedures, and in the scope of 
work undertaken by the IG. Ms. Johnson deserves credit for 
continuing to push for change in the office leadership. I want 
to reiterate her comments that we want to see the office moving 
out and doing a good, solid job going forward. Please take that 
message back from this hearing and good luck to you as you work 
through your backlog.
    And with that, Mr. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Oklahoma, Mr. Bridenstine, is recognized 
for his questions.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I just wanted to kind of drill down a little bit on the 
gentleman's pay when he was a contractor. Your report says it 
was $471,875, is that correct?
    Mr. Greenblatt. That was not his--the wages that he took 
home. That includes housing----
    Mr. Bridenstine. Okay.
    Mr. Greenblatt. --which was not paid to him.
    Mr. Bridenstine. Okay. So if you take what he was actually 
paid and if you were to compare it to what he got paid as a 
government official but then you also added what he got paid as 
a government official if you added that to his health care 
benefits, his life insurance, his, you know, FICA, you know, 
payments, all those kind of things, how does it compare?
    Mr. Greenblatt. Well, he started out--this is according to 
his own information to us, what he told us, that he started out 
making effectively $72 an hour and he added in--he monetized 
all of the benefits that you mentioned, including retirement, 
payroll taxes, annual leave, holiday time.
    Mr. Bridenstine. So was it equivalent?
    Mr. Greenblatt. Then it became 102--$105 an hour, a 
difference of about $33 an hour.
    Mr. Bridenstine. Was his pay as a contractor equivalent, 
greater than, or less than his pay as a government employee?
    Mr. Greenblatt. $33 higher.
    Mr. Bridenstine. Per hour?
    Mr. Greenblatt. Correct.
    Mr. Bridenstine. And that includes----
    Mr. Greenblatt. I'm sorry. I'm sorry. Yes, per hour.
    Mr. Bridenstine. And that includes the housing that he had, 
right?
    Mr. Greenblatt. No, that does not.
    Mr. Bridenstine. Okay. So on top of that there was housing?
    Mr. Greenblatt. Correct, which did not go to him 
personally.
    Mr. Bridenstine. Okay. So tell me about the housing. What 
were the housing arrangements like?
    Mr. Greenblatt. So the housing arrangement went through the 
Fisheries Service the National Marine Fisheries Service. They 
had a contract called BOQ contract that went with a number of 
residential buildings in the neighborhood near their office 
where senior executives who were on temporary detail to their 
headquarters would stay.
    Mr. Bridenstine. So he did not own this housing?
    Mr. Greenblatt. Correct.
    Mr. Bridenstine. And would the housing have been empty had 
he not been in there?
    Mr. Greenblatt. I assume so.
    Mr. Bridenstine. So it really didn't cost the government 
anything for him to use--it was probably a good--I'm just 
asking out of curiosity. Is that a good use of the government's 
resources to put him in open housing?
    Mr. Greenblatt. I think they would not have had to pay for 
that particular housing. I don't know but----
    Mr. Bridenstine. Okay.
    Mr. Greenblatt. I don't know whether they would have had to 
pay for that particular unit if he had not used it.
    Mr. Bridenstine. That would be very useful for us to know.
    Out of curiosity the Deputy CFO's supervisor, the CFO, was 
aware of these arrangements, correct?
    Mr. Greenblatt. Well, we believe so. We heard witness 
testimony and there is some evidence to suggest that he did 
approve it. He told us----
    Mr. Bridenstine. You don't have any paperwork that he 
approved it?
    Mr. Greenblatt. I am not aware of specific--a specific 
document that he signed approving it. I do not know of that.
    Mr. Bridenstine. But his testimony indicated that he 
approved it?
    Mr. Greenblatt. His testimony said that he did not approve 
it and that he would not have if----
    Mr. Bridenstine. So he didn't----
    Mr. Greenblatt. --he'd known about it.
    Mr. Bridenstine. He didn't approve it but he must have 
known it was going on if this guy shows up the day after he 
retires as a consultant.
    Mr. Greenblatt. He knew about the consulting arrangement. 
He says he did not know about the housing part.
    Mr. Bridenstine. Okay.
    Mr. Greenblatt. But other witnesses told us that he did 
know, including the senior official himself.
    Mr. Bridenstine. Well, the senior official--not--the senior 
official--the deputy CFO was working with the CFO to make sure 
that he could come back as an employee immediately following 
his retirement--as a contractor immediately following his 
retirement, is that correct?
    Mr. Greenblatt. Correct. It was at the request of his 
supervisor, yes.
    Mr. Bridenstine. Now, what about the supervisor's 
supervisor? If we go up to say Chief of Resources and 
Operations Management at NOAA, Mary Wiley, was she aware of it?
    Mr. Greenblatt. I do not know. We--I do not think it went 
up higher than--we don't have evidence it went up higher than 
the supervisor.
    Mr. Bridenstine. Did you ask that question?
    Mr. Greenblatt. I--I'll have to get back to you on that. I 
believe we did. I will get back to you on that.
    Mr. Bridenstine. Okay. So that--this is very relevant to us 
because, you know, the gentleman clearly, according to your 
case here, he wrote a contract that he then benefited from. I 
think we're all in agreement that that's problematic. But if 
the people above his chain of command, how high up did they all 
know about this, then we're talking about systemic problems 
and, you know, that's a whole other level of issue that we have 
to deal with as a government, not just within NOAA but as a 
government. This is an issue probably governmentwide.
    I'm about out of time. Mr. Chairman, I'll yield back.
    Chairman Smith. Thank you, Mr. Bridenstine.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    I want to start by making a statement that I certainly 
don't condone misconduct or violation of rules or laws or 
misuse of government resources, and I doubt that anyone on this 
Committee would disagree with that. People should be held 
accountable, no question, but I have to say I'm disappointed in 
the way this hearing started this morning. The two attorneys or 
the--excuse me, the attorneys for the two gentlemen who were 
here earlier, Mr. Byrd and Mr. Jiron, had notified the 
Committee that they would be asserting their constitutional 
rights under the Fifth Amendment and that compelling their 
attendance would be to simply embarrass them.
    This all could have been put on record with this statement 
and the point made but instead unfortunately these people were 
subpoenaed here to make this hearing into unfortunately what 
turned into political theater and I--that's unnecessary and 
unfortunate. Again, the point could have been made without what 
happened this morning.
    Mr. Greenblatt, I'm glad you're here this morning.
    Chairman Smith. Would the gentlewoman yield just for a 
second?
    Ms. Bonamici. Yes, Mr. Chairman.
    Chairman Smith. In regard to her comments that she just 
finished, I hope she will check with the House General Counsel, 
and if she does, she will find out that we proceeded exactly as 
was recommended, and if she disagrees with the way we started 
our hearing today, then she disagrees with the House General 
Counsel and I hope she'll take up her comments with him.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Mr. Greenblatt, the IG's findings on this matter were 
referred to the Department of Justice; I believe you said the 
U.S. Attorney in Maryland. How was that referral made?
    Mr. Greenblatt. By----
    Ms. Bonamici. Is there a form letter or----
    Mr. Greenblatt. By phone.
    Ms. Bonamici. By phone. So is there a record of that 
somewhere?
    Mr. Greenblatt. I documented it in an email to my--the rest 
of my team and my supervisor at the time.
    Ms. Bonamici. Okay. And how was--what was the response of 
the U.S. Attorney in Maryland?
    Mr. Greenblatt. They declined to prosecute the matter----
    Ms. Bonamici. And----
    Mr. Greenblatt. --to pursue it.
    Ms. Bonamici. And did they send that in writing?
    Mr. Greenblatt. No.
    Ms. Bonamici. Is that typical that something like this is 
done over the phone?
    Mr. Greenblatt. Yes.
    Ms. Bonamici. And did they indicate a reason why they were 
declining to pursue this?
    Mr. Greenblatt. I think there were a number of reasons. I 
do not want to speak for them. I think if you want their 
answer, I would suggest you go to them. But what I understand 
is that part of it is the delay that we had talked about 
earlier on when the events occurred and when the referral was 
made, but also the involvement of the supervisor. I believe in 
their view it affected the--whether they would pursue it or 
not. That's--again, that's me talking.
    Ms. Bonamici. Okay. And so was that--what was said to you 
in the email or the response--there was no email coming back 
from them did you say?
    Mr. Greenblatt. No, it was----
    Ms. Bonamici. Just a phone conversation?
    Mr. Greenblatt. --a phone call. Yes. That's----
    Ms. Bonamici. Is that what they told you in the phone 
conversation or is that what you think----
    Mr. Greenblatt. I remember discussing those things and that 
was reflected in my email as well.
    Ms. Bonamici. Thank you. Another--there may be some 
confusion about whether Mr. Jiron acted by himself to write his 
statement of work and receive temporary housing as part of his 
postretirement contract or whether he was assisted in these 
acts, which very well may be wholly inappropriate, by others at 
NWS. My understanding is that another NWS official told him to 
write his own statement of work and another helped edit it and 
there were multiple meetings with his supervisor Mr. Byrd and 
others while working out the details while he was a government 
employee. Is that your understanding?
    Mr. Greenblatt. Yes. And we reflected that in our report.
    Ms. Bonamici. And is there any evidence that Mr. Jiron did 
not do the work he was paid to do?
    Mr. Greenblatt. No.
    Ms. Bonamici. So he actually did? He worked as a 
consultant?
    Mr. Greenblatt. We believe he was there when he said he was 
there. We have no reason to believe he wasn't doing things 
while he was there.
    Ms. Bonamici. And is it your understanding that Mr. Jiron 
told multiple NWS officials that he would only come back as a 
consultant if his temporary housing costs were paid because by 
the time he retired, he had moved to Williamsburg, Virginia, 
with his then-ill wife?
    Mr. Greenblatt. Yes.
    Ms. Bonamici. Okay. So I also understand that Mr. Jiron's 
initial short-term contracting agreement was revised at least 
six separate times over a 19-month period. So in correspondence 
with the IG's office, Mr. Jiron apparently has stated that NWS 
could have modified or not renewed his contract at any time 
but--any of those times but chose not to. Is that your 
understanding as well?
    Mr. Greenblatt. It was modified eight times. It was 
initially I think a 3-month contract and it was extended 
overall those modifications to 21 months until he was 
terminated.
    Ms. Bonamici. And is there any evidence to suggest that 
either Mr. Jiron or Mr. Byrd were covering up or trying to 
cover up the fact that Mr. Jiron was working as a contractor?
    Mr. Greenblatt. No.
    Ms. Bonamici. And were--was there any indication that they 
were trying to cover up the fact that Mr. Jiron's housing 
allowance was being paid by NWS while he was a contractor?
    Mr. Greenblatt. Well, with regard to his supervisor, his 
supervisor at least told us that he viewed that to be 
inappropriate and would not have approved it, so he would have 
had concerns about it. Others also told us that they had 
concerns about it. For example, the Fisheries Service that ran 
the housing contract said that they would not have approved it. 
They thought he was a government employee at the time and so 
because that housing was reserved for government employees, 
they thought he was eligible for it in that regard and they 
would not have approved it. This is the one individual who was 
responsible for that contract would not have approved that had 
she known that he was a contractor, not an employee.
    Ms. Bonamici. But did you see any evidence that Mr. Jiron 
or Mr. Byrd were trying to cover up the fact that he was a 
contractor?
    Mr. Greenblatt. No.
    Ms. Bonamici. Thank you. I'm out of time. I yield back. 
Thank you, Mr. Chairman.
    Chairman Smith. I thank the gentlewoman for her questions 
and we will now go to the gentleman from Ohio, Mr. Johnson, for 
his.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman. I appreciate 
the opportunity to ask questions. And, Mr. Greenblatt, thanks 
for being with us today.
    You know, Mr. Chairman, I've heard questions and comments 
related to is this an institutional failure versus individual 
wrongdoing. You know, I--yes, I serve in Congress now but I 
served in the U.S. Department of Defense and the Air Force for 
26-1/2 years and one of the things that--the core values of the 
United States Air Force was integrity first. That means you 
tell the truth. That means you don't cheat. That means you 
don't lie. And that means you don't take things that don't 
belong to you.
    You know, there's a basic sense of right and wrong that I 
think the American people have a reasonable expectation that 
people within our federal government are going to adhere to. So 
I'm very concerned about what we're talking about today.
    Can I have the first slide, please?
    [Slide.]
    Mr. Johnson of Ohio. Mr. Greenblatt, this slide is an email 
from Donald Jiron to Robert Byrd. The subject is the SOW and 
proposed hourly rate dated March 26, 2010. In this email Mr. 
Jiron is informing his superior Mr. Byrd that he had edited the 
initial contract for his employment as a consultant. In the 
email Mr. Jiron suggested that he proposed an hourly rate of 
pay for himself. Were you surprised to see this email?
    Mr. Greenblatt. Well,this is the problem that we found with 
the contracting process certainly was someone engaged in 
writing their own future contract that would involve their own 
wages. Yeah, I mean that's federal service 101. You don't get 
involved in matters that will involve cash going to your bank 
account.
    Mr. Johnson of Ohio. That affect you financially, 
absolutely. Should Mr. Jiron in your opinion have known that it 
was inappropriate to draft a contract for his unemployment, 
establish his own hourly rate? Should he have known this?
    Mr. Greenblatt. Well, we believe so. I believe that was the 
conclusion of the report that that's a basic tenet of federal 
service. Like I said, you don't take part in matters that 
affect your own bank account. And he was a longtime federal 
employee, 38 years. I would be hard-pressed to believe that 
there was no training, no ethics guidance at any point along 
the way.
    Mr. Johnson of Ohio. Well, do you know of the specific 
legal or ethical violations that are implicated by this email? 
Are you prepared to tell us that?
    Mr. Greenblatt. Well, it certainly implicates 18 USC 208, 
which is the Criminal Conflict of Interest statute--and we 
discussed that in the report--which says you can't have--you 
can't personally substantially participate in a matter that has 
a direct and predictable effect on your financial interests.
    Mr. Johnson of Ohio. Okay.
    Mr. Greenblatt. And so this I think meets that standard.
    Mr. Johnson of Ohio. All right. According to the email, Mr. 
Jiron's superior Mr. Byrd wrote--he said, ``Don, looks good in 
general.'' So based on this email, do you believe that Mr. Byrd 
facilitated in putting this contract together?
    Mr. Greenblatt. Absolutely. He certainly approved it. He 
requested that Mr. Jiron take these actions, so--and we say as 
much in the report.
    Mr. Johnson of Ohio. How concerning is it--and you've 
already answered it a little bit--but how concerning is it to 
you that this exchange occurred between the CFO and the Deputy 
CFO of the agency, the two that are responsible for the 
agency's finances? How concerning is that to you?
    Mr. Greenblatt. Well, I think, as we said, these are folks 
that should have an awareness of the ethics issues at play. And 
this at a minimum reflects poor judgment with respect to that.
    Mr. Johnson of Ohio. Could I have the next slide, please?
    [Slide.]
    Mr. Johnson of Ohio. According to Mr. Byrd's transcribed 
interview with the IG, he had ethical concerns with bringing 
Mr. Jiron back so quickly as a contractor. So do you have any 
idea if Mr. Byrd had concerns about this, why he didn't raise 
those concerns earlier?
    Mr. Greenblatt. Well, according to what the supervisor told 
us, he said that you clear it, you--he said to his subordinate, 
the senior official, you know, clear it with the contracting 
folks and I'll sign off----
    Mr. Johnson of Ohio. Um-hum.
    Mr. Greenblatt. --effectively is what he told us.
    Mr. Johnson of Ohio. As the CFO of the agency, does he have 
an obligation to notify management that he has concerns about a 
contract that he personally authorized? Are there any rules in 
the agency that require that?
    Mr. Greenblatt. I don't know the answer to that question. I 
think what he told us is that he was reliant on his subordinate 
and what he believed the contracting officer was telling him 
that it was okay.
    Mr. Johnson of Ohio. Okay.
    Mr. Greenblatt. So that was my understanding of what he 
would say but I don't know the answer to that question.
    Mr. Johnson of Ohio. Very concerning. Mr. Chairman, I yield 
back.
    Chairman Smith. Thank you, Mr. Johnson.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
his questions.
    Mr. Beyer. Thank you, Mr. Chairman. And, Mr. Chairman, I 
respect your leadership and our friendship but I, too, am 
disappointed by today's hearing. I've learned nothing new and 
nothing that was not already clear in the Inspector General's 
report. And I look forward to when our Science, Space, and 
Technology Committee actually gets back to spending more time 
on science, space, and technology rather than trying to 
embarrass NOAA and its many excellent employees over a single 
instance already handled by the Inspector General.
    Mr. Greenblatt, we work very hard to encourage companies to 
hire our veterans, and since so many of these veterans have 
substantial experience in technology, weapons, war-planning, 
logistics, and more, are we inadvertently creating a revolving 
door, former federal employees acting as federal contractors? 
Do you have any idea how many retired military officers and 
enlisted now work for federal contractors doing DOD work?
    Mr. Greenblatt. I have no idea. I would imagine it's a 
large number.
    Mr. Beyer. It's a really large number. This is rhetorical 
but thank you for trying to answer it.
    Mr. Greenblatt, you graduated from Columbia Law and I 
understand you're not the House General Counsel and your--focus 
on the House General Counsel. Wasn't it a waste of time, 
taxpayer dollars, 37 minutes of this Committee's time to insist 
that two former National Weather Service employees who had 
specifically declared their intent to invoke the Fifth 
Amendment show up? I was just sort of baffled by what purpose 
was served by this low theater.
    Understanding that the Department of Justice has already 
declined to pursue any criminal charges against Mr. Jiron, do 
you believe that this was--they were forced to appear in order 
to create a contempt of Congress charge against them?
    As a lawyer, does it make any sense to pursue a contempt 
citation for the legitimate exercise of one's constitutional 
rights?
    Mr. Greenblatt. The last thing I'm going to do is challenge 
the Chairman of a Committee that I'm testifying before at the 
time.
    Mr. Beyer. Well, I was hoping you'd challenge the House 
General Counsel, not our distinguished Chairman so----
    Mr. Greenblatt. I don't know that I'm well-positioned to 
respond but I appreciate your concern.
    Mr. Beyer. Okay. Well, I still have a couple of minutes 
left. The National Weather Service Employees' Organization 
filed a complaint two years ago about the pervasive illegal use 
of personal service contracts at the National Weather Service. 
Apparently, they have more than 1,000 contractors, the cost of 
which is over $130 million. Is there pervasive, maybe even 
illegal use of personal service contracts? And according to the 
National Weather Service Employee Organization, these personal 
service contracts are being paid far more on average than the 
civil service employees, many of whom are doing the exact same 
work.
    Why are there so many personal service contracts being used 
rather than filling these jobs with actual federal employees? 
And the cost of the contracts to taxpayers is considerable so 
do you know of anything that NOAA or Commerce is doing to 
address this concern?
    Mr. Greenblatt. I don't. I think that would be a question 
better presented to the agency that in terms of what if any 
steps they're taking. I--sitting here right now I can't tell 
you whether they have taken any action.
    Mr. Beyer. Okay. Thank you, Mr. Greenblatt.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Arkansas, Mr. Westerman, is up next for 
his questions.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Greenblatt, you are familiar with the letter Mr. 
Jiron's attorney wrote to the Office of Inspector General 
refuting claims that your office made in its recent report 
detailing the contract misconduct. In that letter Mr. Jiron's 
attorney states that Mr. Jiron ``followed his boss' 
instructions. He had no experience with federal contracting and 
had to rely on the advice provided by officials who are 
experts.''
    Mr. Greenblatt, do you believe Mr. Jiron had no contracting 
experience given that he was the Deputy Chief Financial Officer 
and worked at the National Weather Service for 38 years?
    Mr. Greenblatt. What I can speak to is what I know from the 
evidence and the email traffic seemed to show some level of 
facility with the contracts but this is really not about the 
contracting issues and knowledge of the far which that letter 
gets into. It's more about the conflict of interest, the ethics 
of it. That is the issue here, not the procurement process but 
rather whether he was involved in a matter that affected his 
own bank account. And that's the problem here and I think that 
is not--I think it is reasonable to believe that he should have 
known that.
    Mr. Westerman. So following that on the conflict of 
interest, do you believe Mr. Jiron should have had the 
foresight to know the arrangement he was orchestrating was 
improper and he could have walked away from it at any point?
    Mr. Greenblatt. Right. I think at a minimum he could've 
just talked to an ethics official. I mean there are ethics 
folks that are available to talk to and ask. And that's what I 
would have--that's an easy step that he and every federal 
employee can do.
    Mr. Westerman. All right. And his attorney states that he 
did not take steps to ensure housing was provided for him in 
his postretirement arrangement. Do you agree with that 
statement?
    Mr. Greenblatt. Oh, I think the evidence is quite clear 
that he was actively participating in securing housing for him 
after he returned as a consultant.
    Mr. Westerman. And his attorney also claims that Mr. Jiron 
would have obtained no contracting experience during his tenure 
at the National Weather Service and thus should not have been 
aware of applicable federal laws prohibiting his conduct 
related to his postretirement consulting position. Do you agree 
with this assertion?
    Mr. Greenblatt. Again, I don't view it as a contracting 
issue; I view it as an ethics issue. And that's pretty standard 
federal service ethics rules that you cannot get involved in a 
matter that involves money going to your own checking account 
and that's exactly what we have here.
    Mr. Westerman. Obviously the contracting issues create 
ethics issues so he should have known that the contracting 
issues could create ethics problems?
    Mr. Greenblatt. Well, certainly when he's talking about his 
own hourly rate and he's negotiating with other federal 
employees, including his own subordinates, about how he's going 
to get the housing, which would take away costs from--his own 
costs, yes, think that's something that it's reasonable for a 
senior, long-time federal employee to know that.
    Mr. Westerman. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Westerman.
    No minority members are here to ask questions so the 
gentleman, Mr. Loudermilk, is recognized for his questions.
    Mr. Loudermilk. Thank you, Mr. Chairman. And before I begin 
my questions I want to thank you for this hearing. And I find 
myself in a very interesting position because I find myself in 
a rare instance that I'm agreeing with the minority on 
something, which was the theatrics at the beginning of this 
Committee. But I must say you handled yourselves with dignity, 
with--the theater environment was created by members of the 
minority by continually interrupting what you had to do 
according to the House Counsel by creating an atmosphere of 
theater. The questions to Mr. Greenblatt have gone away from 
the issue at hand and it's more about previous management of 
his office.
    And in fact one that actually did address this issue that 
was brought up by Mr. Beyer indicated that this was one 
incident where in fact the allegations involved multiple 
incidents over a two-year period. Is that true?
    Mr. Greenblatt. This lasted for 21 months, yes.
    Mr. Loudermilk. Okay. Were there other incidents that were 
maybe uncovered in your investigation? I read that there were 
statements such as this is a normal operating practice.
    Mr. Greenblatt. Yes. W got testimony from a number of 
different witnesses saying that the so-called revolving door of 
folks leaving the National Weather Service and then coming back 
was quite common or happened all the time, things along those 
lines, yeah.
    Mr. Loudermilk. Do we know if it's common practice for them 
to write their own contracts before they leave the employment?
    Mr. Greenblatt. That we do not know so that's what--we're 
comfortable saying that there's testimony about the revolving 
door but I don't know about beyond that.
    Mr. Loudermilk. Okay. Let me ask you a few questions about 
this case in particular. When Mr. Jiron left as a federal 
employee and he came back, did he have the same office?
    Mr. Greenblatt. I--we don't know the answer--we got some 
testimony that suggested he did but we don't know definitively 
whether he did have the same office or same computer or phone 
or anything like that.
    Mr. Loudermilk. Okay.
    Mr. Greenblatt. He did have a NOAA email address.
    Mr. Loudermilk. Okay. But he kept his same email that he 
had had before as an employee?
    Mr. Greenblatt. I assume so but I don't know that for--
    Mr. Loudermilk. Okay. But we don't know if he had the same 
computer, the same phone. There's some testimony that says he 
did. What benefit did the taxpayers gain from him retiring and 
then coming back? Did he essentially do the same job he was 
doing as a federal employee?
    Mr. Greenblatt. I would say that's a question for the 
agency to respond, but I can give you what we found from the 
evidence. A number of witnesses told us that, including the 
folks who replaced him in that position, that they were doing 
different things, that there was no overlap in what they were 
doing. Some folks thought--at least one person, in fact one of 
his successors told us that they thought he was a personal 
services contract essentially for his supervisor doing tasks 
specifically for his supervisor.
    The whole purpose of bringing him back, according to the 
witnesses, was to transfer knowledge. He had this wealth of 
knowledge reportedly. And so when his retirement they wanted to 
get that knowledge before he left. We found that there was 
little of that. According to the witnesses, there was little 
evidence that there was an actual transfer of knowledge as they 
had--
    Mr. Loudermilk. Was he being forced into retirement or did 
he voluntarily retire?
    Mr. Greenblatt. Voluntary.
    Mr. Loudermilk. He voluntarily retired and that we have 
evidence that he participated or wrote the job description. The 
contract was being written before he left so therefore it would 
leave one to understand that this was designed. It was 
premeditated, that this was actually in place. He knew he was 
going to retire so therefore we're going to write the contract 
for him to come back as a contractor. Is that true?
    Mr. Greenblatt. Yes. Just to add one fact is that he said 
he would retire and then his supervisor requested that he come 
back and then they engage in the process of establishing his 
arrangement.
    Mr. Loudermilk. Okay. So--but it was arranged that this was 
going to happen. So effectively what he did was give himself, 
in coordination with his supervisor, a pay raise instead of 
just saying staying on an employment?
    Mr. Greenblatt. Yes, they monetized all of the benefits 
that would not otherwise be available to a contract.
    Mr. Loudermilk. So what benefit did the taxpayers have with 
this arrangement?
    Mr. Greenblatt. That's something I think you'll have to ask 
the agency about what exactly he did on a day-to-day basis 
during that time.
    Mr. Loudermilk. Was he provided housing as an employee when 
he was actually an employee of a federal government?
    Mr. Greenblatt. Oh, no.
    Mr. Loudermilk. Is it standard practice for federal 
employees to be provided housing?
    Mr. Greenblatt. No, sir.
    Mr. Loudermilk. So this was highly unusual for him to leave 
and then come back and be provided housing as a contractor. Is 
that to your knowledge done in any contracts? Or is it common 
practice?
    Mr. Greenblatt. I am not aware of it and a number of folks 
that we spoke with said that they found it to be inappropriate. 
I'm talking about the witnesses found it to be inappropriate. 
And like I said, the woman who was running that contract from 
the Fisheries Service said that she would not have approved it 
had she known he was a contractor.
    Mr. Loudermilk. Okay. I think we've established some of the 
things we need to. Final question, should--has Mr. Jiron or 
anyone faced any disciplinary action as a result of any of 
this?
    Mr. Greenblatt. Well, when the OIG identified a number of 
problems, we approached senior NOAA leadership and then they 
terminated the contract on that--I think the day after we 
briefed NOAA leadership. So they terminated his contract. But 
in terms of discipline, I'm not aware of anything.
    Mr. Loudermilk. Thank you. And I'm out of time. I yield 
back.
    Chairman Smith. Thank you, Mr. Loudermilk.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Mr. Greenblatt, I have a half-dozen questions so I'd 
appreciate it if you could answer them as quickly as possible 
so I can get them all in.
    The testimony today here is almost bizarre. It's almost 
incomprehensible. I know most people back home hopefully would 
find it hard to believe that things could be as corrupt as they 
appear to be. But just to set the record straight in my mind, 
what was the date that Mr. Jiron officially retired from the 
National Weather Service?
    Mr. Greenblatt. May 2, 2010.
    Mr. Posey. Okay. What date did Mr. Jiron start as a 
consultant for the National Weather Service?
    Mr. Greenblatt. May 3, 2010.
    Mr. Posey. Under a contract that he essentially drew 
himself?
    Mr. Greenblatt. Yes, he revised and edited a statement of 
work that--for his own position, yes.
    Mr. Posey. So while he was with the National Weather 
Service he made a contract to become a consultant and come back 
on the date you said?
    Mr. Greenblatt. Correct.
    Mr. Posey. Okay. What was Mr. Jiron's compensation during 
the last month of his service as Deputy Chief Financial Officer 
of the National Weather Service?
    Mr. Greenblatt. He was paid--this is rough--you know, $72 
an hour roughly.
    Mr. Posey. Okay. What was Mr. Jiron's compensation for the 
first month of his role as a consultant under the contract that 
he drew up himself for the National Weather Service?
    Mr. Greenblatt. $105 an hour.
    Mr. Posey. Okay. So Mr. Jiron retired from the National 
Weather Service one day and walked back in the very next day as 
a consultant making $3,000 more per month with his housing 
being paid for, with essentially no change in his day-to-day 
responsibilities?
    Mr. Greenblatt. I think it's generally a fair assessment, 
yes. I can go into more detail if you'd like.
    Mr. Posey. Okay. No, that's good. And the taxpayers 
essentially took a $457,000 hit for that bad behavior, which 
you have clearly documented and you've cited the laws that were 
broken under the conflict-of-interest laws and you took this 
information to the Department of Justice and the Department of 
Justice refused to prosecute?
    Mr. Greenblatt. It declined to pursue the matter, yes.
    Mr. Posey. Did they have any reason why they declined to 
prosecute?
    Mr. Greenblatt. You'll have to ask them about this--about 
the exact final decision as to why but from my understanding I 
think the involvement of the supervisor was a factor in their 
decision and the fact that it--the issue had happened a couple 
of years earlier.
    Mr. Posey. And how many employees at the National Weather 
Service what have their fingerprints on this? If I went back 
through all the gatekeepers they didn't do their job, all the 
checks and balances that are supposed to be in place to stop 
this kind of corruption, how many people had fingerprints on 
this if I was to go back and have everyone looked at?
    Mr. Greenblatt. Sitting here right now I would say the 
number is probably in the five or six range.
    Mr. Posey. Okay.
    Mr. Greenblatt. It was not extensive. It was not, you know, 
20 or 30 people involved. I think it was probably about five or 
six.
    Mr. Posey. And the whistleblowers have indicated that this 
is customary behavior?
    Mr. Greenblatt. Well, the witnesses that we met with told 
us in our sworn interviews that folks retiring and then coming 
back to the Weather Service was commonplace or words of that 
variety.
    Mr. Posey. Okay. Mr. Chairman, I want to thank you for 
bringing this to our attention. For too many years this kind of 
behavior has been swept underneath the rug.
    Mr. Greenblatt, I want to thank you for your honor and the 
way that you have represented the taxpayers back home, for your 
forthrightness, and I hope there are many more people like you 
out there. I'm a little bit chagrined that some people are more 
interested in making sure the two culprits are not embarrassed 
in this Committee.
    Of course, we heard the same kind of comments about Lois 
Lerner, how unfair it was to embarrass Lois Lerner, who clearly 
was corrupt as the day is long, targeting political enemies. 
That's just not the kind of administration the people in this 
country expect. And whatever it is that motivates you to do the 
job that you're doing, I just hope and pray for the future of 
our country and for future generations that there's more out 
there like you. God bless you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Texas, Mr. Weber, is recognized for his 
questions.
    Mr. Weber. Thank you, Mr. Chairman. Mr. Chairman, thank you 
for holding this hearing. Thank you for the way that you've 
held this hearing. Thank you for the way that you've responded 
during this hearing. I find it pretty ironic that the minority, 
who have decried the amount of money that this Committee wants 
to authorize as we go forward, takes issue with the fact that 
in a period when we have $18 trillion and we're trying to make 
the agency as accountable as we can, that they are spending 
taxpayer dollars appropriately, that they're decrying the fact 
that somehow we're trying to make them be better money 
managers.
    We have a fiduciary trust from our constituents. I applaud 
you for wanting to do the right thing on behalf of the American 
people and I appreciate you holding this hearing.
    To the gentleman Loudermilk, my good friend, I'll--when he 
asked the witness what benefit did the taxpayers get, I guess I 
would respond they got to say a very high and hearty thank you, 
good job to this guy by paying him not twice but 2-1/2 times 
what he was getting after he retired. I hope he feels like this 
sent him off with a good farewell and a job well done and a lot 
of money in his pocket. That's my politically incorrect 
statement. Thank you, Mr. Chairman.
    Now, Mr. Greenblatt, you had formal training. I didn't read 
through your bio; I got here late. So you had formal training 
as a lawyer, right?
    Mr. Greenblatt. I did.
    Mr. Weber. Right. And you have mentioned a couple of times 
here that I think it was public service 101 or something--
federal service 101, you don't get involved with the money that 
you're going to be getting paid. You don't get to make that 
decision. How long have you been on the job where you are?
    Mr. Greenblatt. In my current position?
    Mr. Weber. Um-hum.
    Mr. Greenblatt. I've been here for a little more than a 
year. I started May 2014.
    Mr. Weber. Okay, good. So you got trained. How many 
violations of this magnitude have you seen yourself?
    Mr. Greenblatt. It's hard to quantify ``magnitude.'' I have 
seen other conflicts-of-interest cases. When I was at the 
Justice Department Inspector General, I worked on a number of 
conflict-of-interest cases--
    Mr. Weber. Well, let me make it easier for you. Have you 
ever seen somebody retire and get paid 2-1/2 times what they 
were getting?
    Mr. Greenblatt. No.
    Mr. Weber. Okay. That pretty well speaks for itself. Do you 
get training on how to recognize these violations? Did you get 
training?
    Mr. Greenblatt. Mostly on-the-job training--
    Mr. Weber. Mostly on-the-job training.
    Mr. Greenblatt. --but, yes, there is training on ethics 
guidance frequently.
    Mr. Weber. Do people in the agencies, NOAA, IE, National 
Weather Service, should they receive some kind of the same 
training?
    Mr. Greenblatt. Well, I believe everyone--you know, all 
federal employees receive ethics training--periodic ethics 
training depending on the agencies--
    Mr. Weber. Okay.
    Mr. Greenblatt. --and whatever components they're in, but 
that--so they get that. I don't know about ethics training in 
terms of investigations--
    Mr. Weber. Sure. No--but they know--I mean if you were a 
betting man, and I'm going to ask you a very subjective 
question, would you bet that this guy probably knew that, hey, 
this doesn't pass the smell test?
    Mr. Greenblatt. Well, I think we found as much in our 
report that he should have known. I mean working in the federal 
government for nearly four decades I'd be hard-pressed to 
believe--
    Mr. Weber. So he didn't get training in contracting, his 
lawyer said, but I mean he should have had training in common 
sense and right and wrong. I mean even his parents should have 
taught him that, wouldn't you agree?
    Mr. Greenblatt. Yes, but beyond that I would imagine there 
is, over the 38 years, extensive ethics training--
    Mr. Weber. So----
    Mr. Greenblatt. --especially for a senior official.
    Mr. Weber. --I don't mean to pry but you get paid a salary. 
Does the government collect taxes from your salary?
    Mr. Greenblatt. A wee bit, yes.
    Mr. Weber. Oh, do they? Okay. Are you appreciative of the 
fact that you've got a Committee here that actually looks after 
taxpayer dollars and doesn't want to pay retirement employees 
2-1/2 times what they were making at taxpayer expense?
    Mr. Greenblatt. Yeah, I do appreciate the concern.
    Mr. Weber. Yeah, well, I wondered what your motivation for 
being here was, so you're a fiscal watchdog like the Chairman 
here is.
    I noticed in your report you said that there were several 
government officials beyond the subject of our investigation 
shared responsibility you believe, several being three, four, 
five?
    Mr. Greenblatt. I would identify three, yes.
    Mr. Weber. You identify three? And I didn't get a chance to 
read your report. Did you identify them?
    Mr. Greenblatt. We identified the supervisor. Well, we 
didn't identify anyone. Let's just--as a threshold issue, we 
didn't identify anyone for privacy reasons. And so we didn't 
identify them in terms of by name or--
    Mr. Weber. Okay.
    Mr. Greenblatt. --but we did identify by identifying them 
as an individual.
    Mr. Weber. But if you wanted to send a signal to the 
agency--because you also said that there's--there's a quote in 
here that says federal employees returning as contractors once 
they retire ``happens all the time.'' If we want to send a 
signal that this is unacceptable, should we subpoena those 
three in here? I mean I'm sure two of them have already been 
here in some short fashion. Should we be looking at the others 
that were involved and subpoenaing their testimony as well as a 
deterrent if nothing else?
    Mr. Greenblatt. I wouldn't want to, you know, guide the 
Committee on what it should do but--
    Mr. Weber. No. But as a taxpayer, we've already established 
you get paid and we do--and the government takes taxes out and 
you appreciate this kind of oversight, right?
    Mr. Greenblatt. Of course. Of course.
    Mr. Weber. So I'm going to take that as a yes.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    There being no more Members to ask questions, I want to 
thank the witness for his testimony and also members on both 
sides for their questions.
    Today's hearing was an opportunity for Mr. Jiron and Mr. 
Byrd to explain to us why taxpayers picked up the tab for an 
allegedly improper contract worth nearly half-a-million 
dollars. Unfortunately, both former senior officials chose a 
path of noncooperation and refused to speak with Committee 
staff voluntarily and only appeared here today under subpoena.
    In order for the Committee to get the information it needs 
to conduct appropriate oversight of this issue, our 
investigation will continue. The Committee will persist in 
seeking answers from Mr. Jiron and Mr. Byrd and the Committee 
will conduct oversight to determine if these types of actions 
are common at the National Weather Service. The American 
taxpayers deserve answers and we intend to pursue this issue 
until we are certain that taxpayers' interests are protected.
    I'm disappointed that that neither Mr. Jiron nor Mr. Byrd 
chose to testify today. The witnesses are subject to recall, 
and the Committee stands in recess. Thank you all for being 
here.
    [Whereupon, at 11:39 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Mr. Mark Greenblatt


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record



         Report submitted by Chairman Lamar S. Smith, Chairman


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
